Pension Benefit Guaranty Corporation
   Office of Inspector General
         Evaluation Report




      Pension Plan Participants
    Impacted By Delays In Initial
    Determination Letter Issuance




             March 2, 1999
                                    99-1/23128-3
                                                                               Office of Inspector General

                                                                                     March 2, 1999



The Honorable Charles E. Grassley
Chairman
Special Committee on Aging
United States Senate
Washington DC 20510-6400

        This letter responds to your request that we conduct a multi-year review of the Pension
Benefit Guaranty Corporation’s (PBGC) process for issuing initial determination letters (IDLs) to
participants in pension plans that PBGC has terminated and trusteed. Your requested review had
three parts. This report responds to the third request -- that we review “the effect of delays upon
individuals awaiting an IDL.”

RESULTS IN BRIEF

       Information from participants, who had participated in PBGC-sponsored meetings and
surveys, and submitted correspondence to PBGC, indicate that they are affected in many different
ways by PBGC’s delay in issuing IDLs. Some participants stated that delayed IDLs result in:

       • their inability to plan for the financial future;

       • estimated benefit payments continuing for a long time, and if PBGC
         determines that the estimate was too high, participants are told that they owe
         PBGC significant amounts of money; and

       • a low confidence level in PBGC because

         -- PBGC’s estimated benefit payments reduced their monthly payments with
            no explanation or calculation formula, and no ability to appeal;

         -- PBGC stated that they would issue IDLs within a particular timeframe, and
            it hasn’t done so; and

         -- PBGC’s Customer Service Standards don’t address the issuance of timely
            IDLs.

       PBGC has initiated several actions to shorten the length of time between a
pension plan’s termination and trusteeship and the issuance of IDLs. They have also
taken steps to improve their communications with participants.




                                                                                        99-1/23128-3
BACKGROUND

        The Pension Benefit Guaranty Corporation (PBGC) was established under Title IV of the
Employee Retirement Income Security Act of 1974 (ERISA), as amended. PBGC is a government
corporation that protects the pensions of more than 42 million Americans in approximately 43,000
single-employer and 2,000 multiemployer defined benefit plans through an insurance program.
ERISA established a statutory scheme so that if an insured pension plan had insufficient assets to
provide benefits to participants, PBGC could terminate and become trustee of the plan, and then
pay pension benefits when they were due. At September 30, 1998, PBGC was trustee, or in the
process of becoming trustee, of 2,665 terminated pension plans.

         One of PBGC’s responsibilities under ERISA is to ensure the uninterrupted payment of
pension benefits to participants in plans that have terminated. This means that PBGC continues
paying current retirees and begins paying those plan participants who become eligible after PBGC
terminates the plan. The participants receive estimated benefit amounts until PBGC completes
certain tasks with respect to each terminated plan. These tasks include determining the date of
trusteeship and obtaining a trusteeship agreement, confirming key participant data, identifying
plan assets, and valuing those assets and any other recoveries from the plan’s sponsors. PBGC
then calculates the actual benefit to be paid to each participant according to the specific terms of
the participant’s plan, statutory guarantee levels, and the funds available from plan assets and
employer recoveries. PBGC uses the initial determination letter (IDL) to notify participants of an
official decision regarding entitlement to, amount, and other conditions of a benefit.

        ERISA established certain levels of benefits -- guaranteed benefits -- for participants in
terminated plans. Often this amount is less than the amount participants would have received if
the plan had been fully funded or had not terminated. As a result, it is not unusual for
participants to have their benefits reduced twice, once when PBGC first trustees the plan and
reduces the benefit to conform to statutory guarantees (the estimated benefit), and again, when
PBGC issues the IDL (the final benefit).

OBJECTIVE, SCOPE AND METHODOLOGY

        The objective of this review was to determine the effects on participants due to a delay in
the issuance of IDLs. The impact of delayed IDLs on participants is not subject to objective
measurement nor traditional audit techniques. We considered surveying a representative sample
of participants and beneficiaries, but determined that this would be too costly. Therefore, we
looked to PBGC information sources -- for example, data collection from participants or PBGC’s
responses to participants’ inquiries -- where there might be data addressing whether delayed IDLs
affected individuals. We identified three (3) such information sources, which we describe below.
We evaluated the following:

       •=   videotapes of focus groups conducted by PBGC between 1994 and 1998
            composed of participants in terminated plans that PBGC trusteed;
       =
       •=   controlled correspondence received by the agency from April 3, 1996 through
            April 2, 1998; and
       =
       •= responses to PBGC Customer Service Surveys from 1995 through 1997.
       =
       We also reviewed interviews with senior PBGC program managers that were conducted
during the audit of the effectiveness and efficiency of PBGC’s benefit determination process (see
OIG Report 99-2/23128-1).




                                                 -2-
                                                                                  99-1/23128-3
        We did not verify the accuracy of statements, benefit amounts or claims represented by
participants in the information sources. Our analysis and the examples cited are directly from the
information sources only. These information sources are not statistically valid samples.
Percentages in this report relate to the sample only and cannot be extrapolated to the universe of
participants in terminated plans trusteed by PBGC.

        Focus Groups

        PBGC conducted a series of focus groups with retirees and deferred vesteds between 1994
and 1998 to obtain feedback regarding some specific customer services issues, such as timeliness
of responses to telephone and mail inquiries, and suggestions for improved service. These focus
groups were conducted in various locations (e.g., Pueblo, Pittsburgh, Miami) and were composed of
participants from a variety of pension plans (e.g., plans in the steel, manufacturing, retail, airlines
industries). These sessions were videotaped and lasted approximately two (2) hours.

       We viewed eight (8) videotapes -- one each from Washington, DC; Miami, Florida;
Wilmington, Delaware; and Pueblo, Colorado; and two each from Pittsburgh, Pennsylvania and
Sarasota, Florida -- to determine whether there were any discussions regarding the impact of a
delayed IDL. We also asked PBGC what actions it took in response to information received from
the focus groups (see page 4).

        Controlled Correspondence
                                                                   1
        Controlled correspondence is sensitive correspondence received by PBGC. Upon receipt,
sensitive correspondence is reviewed to determine who will respond, assigned a control number,
and entered into a master log. PBGC’s policy is to respond to sensitive correspondence within ten
working days of receipt at PBGC. This correspondence is maintained in PBGC Executive Office
files.

        We reviewed controlled correspondence PBGC received from April 2,1996 through
April 3, 1998. The review consisted of 1,546 pieces of correspondence, many of which had
multiple documents attached. We determined that 353 (23%) letters had issues related to IDLs
                                                  2
that were initiated by 278 different participants. Our review was limited to the information
contained in the controlled correspondence. One hundred-five (105) participants included their
IDL in their correspondence. Our analysis of the length of time it took PBGC to issue an IDL --
measured from the date of plan termination to the date on the IDL -- was based on this
           3
population (see page 5).

1
  Sensitive correspondence is defined as correspondence originating or signed by the Office of the President
or Vice President, Members of Congress, various Federal and State officials, and National Labor Union
Officers. In addition, all complaint letters and communications addressed to the Executive Director, and any
additional correspondence specifically designated by the Executive Director or Deputy Executive Directors
are considered sensitive correspondence.

2
  Seventy-five letters, or 21%, were repeat correspondence within the 2 year period, sent to multiple
congresspersons, the Department of Labor, and the White House. In addition, twenty-five letters, or 7%,
were “form” letters from participants in the same plan.
3
  The OIG report that responds to the second question you asked us to review -- the length of time it takes
PBGC to issue IDLs -- uses the Date of Trusteeship (DOTR) to the date the IDL was issued to measure the
time (see OIG Report 99-3/23128-2). PBGC also uses the DOTR when it computes and reports on the length
of time it takes to issue and IDL. The date the plan terminates may be earlier, and sometimes significantly
so, than the DOTR. We did not use DOTR in this report, however, because that information was not
available in the controlled correspondence.

                                                    -3-
                                                                                        99-1/23128-3
        Customer Service Surveys

        In response to Executive Order 12862, Setting Customer Service Standards, each year since
1995, PBGC surveys participants and beneficiaries from pension plans that it terminated and
trusteed. Those surveyed are randomly selected from those who have had some contact with
PBGC during a particular time period. The surveys consist of ten (10) to twelve (12) questions
about the quality and timeliness of service the participant received from PBGC. Those surveyed
include current retirees (or their beneficiaries) and deferred vesteds (those who will receive benefits
in the future) whose plans are administered in Washington DC or at one of PBGC’s Field Benefit
Administrators’ (FBAs) offices operated by contractors. Approximately 4,000 surveys are sent
each year. Upon receipt of the survey responses, PBGC analyzed them and prepared reports to
management.

       We reviewed the surveys to determine whether there were any questions that would illicit a
response regarding the impact of a delayed IDL. We also reviewed some of the narrative responses
and PBGC’s report analyses (see page 7).


EFFECT OF DELAYED INITIAL DETERMINATION
LETTERS ON PARTICIPANTS

       PBGC recognizes that it needs to decrease the time between when the plan is terminated
and trusteed and when the IDL is issued. Senior PBGC management officials stated that the
impact of this delay is mitigated by several factors:

        (1) until PBGC completes the plan valuation and calculates the final benefit,
            participants who retire receive estimated payments and deferred vesteds can
                                              4
            receive an estimated calculation;

        (2) if an overpayment occurs because the estimated payment is greater than the
            final benefit amount, PBGC’s policy is to: (a) recoup the overpayment from
            on-going benefits at 10% of the monthly benefit until the overage is paid, and
            (b) if the participant dies before the IDL is issued, not seek recoupment from
            the estate; and

        (3) if an underpayment occurs because the estimated payment is less than the
            final benefit amount, the participant, or the estate of a deceased participant,
            is paid the underpaid amount in a lump sum with interest.

One senior PBGC management official stated that a delayed IDL has very little impact upon
participants because the participants are receiving their monthly checks. PBGC’s focus appears
to be the immediate financial impact upon participants of PBGC’s trusteeing of the pension plan.

       Some participants and beneficiaries stated that the delayed IDLs greatly impacted them.
Notwithstanding PBGC’s immediate payment of their monthly benefit, they reported other
economic harms such as inability to plan their financial future and the requirement to repay
overpaid benefit amounts. The participants noted that the estimated benefit had been incorrectly


4
 There is no formal policy nor practice to provide estimated benefit calculations to deferred vested
participants. PBGC has been developing an “actuarial toolkit” (see Report at 9) to be able to provide such an
estimate but we do not have evidence that it has been implemented.



                                                     -4-
                                                                                         99-1/23128-3
computed by PBGC in the first instance, then PBGC’s delay in issuing the IDL compounded the
overpayment. They also reported impacts other than financial, such as emotional. These
participants’ and beneficiaries’ statements were expressed verbally in focus groups and in writing
through controlled correspondence and survey responses.

        Focus Group Data

       In the focus groups, both retirees and deferred vesteds who addressed the issue of delayed
                                                                                   5
IDLs stated that this was their primary complaint about PBGC’s customer service. For example,
the Miami focus group, conducted in 1995, was composed of participants in various airline
industry plans who are retired and receiving benefits from PBGC. When asked the “one thing they
most wanted PBGC to know,” 4 (four) of the 12 (twelve) in this group stated their dissatisfaction
with not having a final benefit determination and an explanation of the benefit reductions. When
discussing the new Customer Service Standards, some of the focus group members gave PBGC
high marks for getting the monthly checks out on time. The same four group members said they
would give PBGC a “grade of D” even if PBGC could perform most of its new Customer Service
Standards because the Standards did not address the timeliness of IDLs. These retirees stated:

        • they can’t plan their financial future because they don’t know how much they
           will get;

        • their benefits have already been reduced at least once when the PBGC began
           paying the estimated benefits and no explanation was given as to how this
           estimated amount was calculated;

        • they can’t appeal the estimated amount;

        • they can’t understand, nor has it been explained, why it takes so long to
           calculate their final benefits; and

        • PBGC’s Customer Service Standards are not complete because they do not
          address the timely issuance of final benefit determinations.

        Another focus group was conducted in Pueblo, Colorado in 1998, with deferred vesteds in a
steel industry pension plan. Eight (8) of the eleven (11) participants responded that they “most
wanted PBGC” to issue accurate and more timely final benefit calculations. A majority of these
focus group participants stated that PBGC had not met its commitment to them to issue IDLs
timely. When their pension plan terminated in 1992, PBGC met with participants and stated that
IDLs would be issued in two to three (2-3) years. These participants stated that it had now been
more than five (5) years; even if steel pension plans are complicated, it shouldn’t take this long.
They voiced the same concerns and complaints as some in the Miami focus group and added some
others.

        • They questioned why participants are given only 45 days to appeal PBGC’s
          final benefit determination when it has taken PBGC years to compute it.

        • They stated that customer service surveys don’t have meaning when PBGC
          isn’t providing the basic customer service of a final benefit determination.

5
  Not all focus group participants raised a delayed IDL as an issue. For instance, in the focus groups that
were composed solely of retirees, many of the participants retired long before PBGC became trustee of their
plan and their benefits were not affected by the plan termination. For the others, they had been in pay status
for so long most of them did not remember receiving an IDL.



                                                     -5-
                                                                                         99-1/23128-3
       Controlled Correspondence Data

         For controlled correspondence from April 1996 to April 1998, we determined that 278
participants raised issues regarding PBGC’s delay in issuing IDLs. These letters reported a myriad
of different problems. For example, our analysis of this two years’ of correspondence showed that:

       • PBGC took an average of 9 years 8 months to issue the IDLs;

       • The longest time between the date the plan was terminated and IDL issuance
         was 18 years 4 months;

       • 60% had received IDLs;

       • 28% were trying to obtain an IDL, for example:
         -- participant was promised an IDL in 1991, but as of 1996 still had no IDL;
         -- participant requested IDL in 1985 and told he was due a lump sum but
            had to wait for final valuation of his pension plan to apply. In 1996, eleven
            (11) years later, and participant was 65, PBGC sent IDL informing him he
            was nonvested and therefore not due a benefit; and

       • 32% had appealed some aspect of their IDLs.

       Some of the participants wrote to complain about their benefit amounts relating to the IDL
delays. For example, we identified:

       • $529,994 in overpayments to 39 participants
         -- the largest overpayment was paid for fourteen (14) years and totaled
             $152,525.88;
         -- five participants in one plan were issued IDLs almost six years after the
             plan terminated and were overpaid between $19,000 to $28,000 each;

       • 22% wanted to stop the reduction in their benefits as they had received the
         benefit for years and relied on it: reductions occurred both in the estimated
         and final benefit amounts; and

       • Participants were paid underpayments in a lump sum: one participant stated
         she paid $6,000 more in taxes by receiving a lump sum for a ten (10) year
         underpayment than if she had received the correct monthly benefit.

Participants also raised other questions related to delayed IDLs, such as:

       • why there is no statute of limitations for recoupment; and

       • how PBGC was protecting their pension when they had waited eight to twelve
         (8-12) years for an IDL and then their benefits were reduced.




                                                -6-
                                                                                 99-1/23128-3
        Participants reported they were living on fixed incomes. While only 3% said they could not
live on their reduced benefit, 13% said the reduction would cause hardship. For example:

       • a beneficiary reported that the $70 monthly reduction in the survivor benefit
         was her “power bill” money;

       • a participant reported that twelve (12) years after the plan terminated and he
         had been receiving benefits, PBGC reduced his benefit an additional $197.81
         a month, or $2,373 per year; he pays $2,250 for supplemental insurance to
         Medicare for he and his wife and doesn’t know where he will get the money to
         pay for the insurance now; and

       • a 75 year old widow who was in pay status eight (8) years received an IDL
         which reduced her pension 25% and informed her she owed PBGC $5,667.70.

        Eight percent (8%) of the participants thought delay in issuing IDLs had caused illness.
Participants were also afraid of having their benefits cut and recoupment taken out of the reduced
benefit.

      Participants also noted that errors in determination of the participant’s entitlement to, or
amount of, the benefit are compounded by the passage of time.

       • Participant received an IDL informing him he was nonvested after PBGC put
         him into pay status more then twelve (12) years ago.

       • Survivor was told she was not entitled to a benefit which was reversed after
         she produced a letter PBGC had sent her spouse sixteen (16) years ago stating
         he was receiving a Joint & Survivor annuity. The plan was terminated in
         1977 but there was no record of an IDL being sent. The IDL would have
         stated the form of the benefit and given the participant a right to appeal if he
         disagreed.

       • IDL sent in error stating benefit form was a Joint & Survivor. After
         participant died, his surviving spouse was sent a corrected IDL stating the
         participant’s benefit was a straight life, therefore she was not due anything.

       • Eighty-five year old spouse tried for five (5) years to find out what benefit she
         was due from a plan that terminated in October 1986. After she suffered a
         stroke, her son-in-law wrote a congressional office. PBGC then responded
         that she was eligible for a lump sum.

        We also noted that some industries had more participants than others who wrote to PBGC
about delays in issuing IDLs. The steel industries’ pension plans’ participants accounted for 17%
of this controlled correspondence. Participants in the airline pension plans accounted for 31% of
the correspondence, with 19% from one airline.




                                                 -7-
                                                                                   99-1/23128-3
Customer Service Surveys

       There were no questions on the surveys about PBGC’s timeliness in IDL issuance. There
was a question about the timeliness of PBGC’s customer service, which followed a series of
questions concerning PBGC’s responses to participants’ telephone and letter inquiries. For the
1995 survey, PBGC’s analysis of the data showed that for “timeliness” of service:

       • 50% of retiree’s rated PBGC as “Excellent,” as compared to 36% of deferred vesteds; and

       • 9% of retiree’s rated it “Poor,” as compared to 19% of deferred vesteds.

For “timeliness” of service provided by the FBAs and PBGC’s Washington DC headquarters:

       • 60% rated FBA service as “Excellent,” as compared to 34% by Headquarters; and

       • 5% rated FBA service as “Poor,” as compared to 18% by Headquarters.

       As a result of this information and that gathered from the focus groups, PBGC undertook
some customer service initiatives (discussed more fully below). The surveys taken in both 1996
and 1997 showed improvement in the “timeliness” ratings assigned by both retirees and deferred
vesteds and for the service provided by Headquarters.

       • For the 1996 survey, 58% of retirees and 40% of deferred vesteds rated PBGC as
         “Excellent,” and 44% rated Headquarters’ “timeliness” as “Excellent.”

       • For the 1997 survey, 61% of retirees and 50% of deferred vesteds rated PBGC as
         “Excellent,” and 47% rated Headquarters’ “timeliness” as “Excellent.”

       The surveys also provided a space for respondent’s to record a specific complaint or
additional comments. For the 1997 survey, PBGC reported that 15% of respondents (about 411 of
2,741) rated PBGC’s “overall customer service” below average or unacceptable. Of these
respondents, one hundred-forty-six (146) provided written comments, which PBGC compiled. Our
evaluation of these comments found that fifty-one (51) related to delayed IDL issues, i.e., not
                                                                                            6
having information about eligibility for, and amount, form and timing of pension benefits.


AGENCY ACTIONS TO ADDRESS PARTICIPANT
CONCERNS ABOUT DELAYED IDLS

      In response to our request, PBGC provided the following information about its actions to
respond to delayed IDL concerns raised by participants. After the first focus groups in 1994,
PBGC took several actions to improve customer service, including:

       • Customer Service Standards were developed and communicated to PBGC staff
         and customers;

       • an annual newsletter to deferred vesteds was started; and

       • implementation of an 1-800 telephone number and the Customer Service


6
  This is a conservative number as we only included those who clearly complained about not receiving
information about their benefit entitlement. There were many other complaints that PBGC had failed to
respond to an inquiry, but they were not specific as to the nature of the inquiry.

                                                   -8-
                                                                                      99-1/23128-3
          Center were accelerated.

        PBGC first sought feedback on the Customer Service Standards (though they had only
been in existence since November 1994) in the 1995 customer survey and the Miami focus group
in April, 1995. What PBGC learned was that participants were not satisfied with the timeliness of
PBGC’s service. In particular, the Miami focus group complained about delayed IDLs. PBGC
reported that this information focused management’s attention on IDL processing and resulted in
several actions:

       • in a June 1995 Strategic Planning session discussing “where do we want
          PBGC to be in 5 years,” the goals of “processing plans within 3 years” and
          “benefit estimates within 5% of the final calculation” were discussed. These
          were subsequently adopted as two of seven performance measures in PBGC’s
          Strategic Plan;

       • Customer Service training was required of both Headquarters and FBA staff;
         and

       • development of the “Actuarial Toolkit” (an automated program for more
         accurately estimating benefit calculations) was planned.

       While the customer service surveys did not ask questions about delayed IDLs, respondents
wrote in about them. As a result, when the Customer Satisfaction Working Group analyzed the
1997 survey data, they made three (3) recommendations specifically aimed at improving this
aspect of customer service. They recommended that PBGC:

       • make it a priority to develop a means to provide participants with an
         “estimated benefit summary” provided as soon as possible after trusteeship of
         a plan (information about the amount and year of eligibility provided over the
         telephone with a follow-up form letter);

       • change its response to deferred vesteds who inquire about future benefits
         (common practice is to state only whether he/she is entitled and at what age,
         but to say estimate cannot be made and he/she should contact PBGC close to
         retirement age); and

       • develop better means to communicate with deferred vesteds about PBGC
         activities such as what happens when a plan is terminated, why estimated
         benefits are given and how they are calculated.

        Another recommendation was to conduct more focus groups to better gauge customer
expectations (particularly deferred vesteds), obtain feedback on revised Customer Service
Standards, and assess various communication efforts. Additional focus groups were conducted in
1998. PBGC has also established a REACH (Reach for Excellence and Customer Happiness) team
to “define what an ideal communications package that provides information to participants early
in the trusteeship process” would look like.

        We did not find any evidence that PBGC had reviewed controlled correspondence, as we
did, to determine whether there were any consistent issues raised by participants who wrote to
PBGC.

CONCLUSION

                                               -9-
                                                                                 99-1/23128-3
        Our evaluation of whether participants and beneficiaries are impacted by the delay in IDL
issuance revealed that there appears to be a gap between PBGC management’s perception of the
impact and the perception of those who are waiting for their IDLs. Intermittently during our
review, we asked PBGC management: What is the affect on plan participants of PBGC’s delay in
issuing IDLs? Consistently, PBGC management focused on the financial impact, and one manager
stated that there was little impact because PBGC was sending monthly benefits to the
participants.

        From PBGC’s own information sources -- focus group videotapes, customer service
surveys, and correspondence -- we evaluated information provided by participants and
beneficiaries about the impact of delayed IDLs. We found that some participants and beneficiaries
are genuinely concerned about and impacted in very specific ways by PBGC’s delays in processing
pension plans and ultimately issuing IDLs.

        We sought information to determine whether PBGC was implementing any customer
service strategies to address these concerns. We identified progressive steps that have been
taken, or are about to be taken, to address delayed IDL issuance concerns. Corporate initiatives,
with a focus on earlier IDL issuance, has begun. It appears, though, that these initiatives will
require some implementation time before participants and beneficiaries will directly benefit from
shortened periods of time to issue IDLs. The OIG intends to monitor and report on the progress of
PBGC actions taken to resolve participant and beneficiary concerns.

AGENCY COMMENTS AND OIG EVALUATION

       Although the Report contains no findings or recommendations, a copy of the draft was
provided to the agency for comment. We met with several PBGC officials to discuss the Report’s
findings. Subsequently, we made clarifications in the Report in response to management
concerns, as appropriate.

       In its official written response, PBGC did not disagree with the Report’s conclusion that
pension plan participants are, in fact, affected by delays in initial determination letter (IDL)
issuance. Rather, PBGC’s comments focus on actions and initiatives PBGC has undertaken since
1993 to decrease the amount of time it takes to issue an IDL.

       The full text of PBGC’s comments are attached to this report at Tab 1.

                      __________________________________

       This Report is one of four issued by the OIG in response to questions posed by Senator
Grassley concerning PBGC’s issuance of IDLs:

•= Improvements Are Needed To Achieve Better Efficiency and Effectiveness in PBGC’s Benefit
   Determination Process (OIG Report 99-2/23128-1);
•= The Length of Time It Has Taken PBGC To Issue Initial Determination Letters (99-3/ 23128-2);
•= Pension Plan Participants Impacted By Delays In Initial Determination Letter Issuance (OIG
   Report 99-1/23128-3); and
•= Audit of PBGC’s Response To Certain Questions Concerning Appeals of PBGC Initial
   Determinations of Pension Benefits (OIG Report 98-10/23131).



                                               -10-
                                                                                99-1/23128-3
       If you have any questions concerning this letter report, please contact me at
(202) 326-4030.




Wayne Robert Poll
Inspector General




                                               -11-
                                                                                 99-1/23128-3
